                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM
                                             -




 Case Number: I05030012                                                                        Page 1I) of 1



          OIG received an e-mail from an individual' who identified himself as a former employee of a
          cornpang currently receiving NSF fbnding. This individual stated that he feared retaliation by
          the company if his cooperation were to become known because his cooperation would likely
          result in the termination of other individuals currently employed by the company. The
          complainant requested, and was granted, confidential source status3and is referred to as CS-1 in
          all case related correspondance.

          CS-1 stated that during his employment with the company he had observed several instances of
          contractor waste and wanted to bring it to NSF's attention. CS-1 identified the following
          incidents of contractor waste and possible mismanagement: 1) Use of improper circuit breakers
          which failed to protect electrical equipment, 2) Data transmission failures due to lack of dellular
          coverage due to the company's failure to pre-test the communication equipment prior to
          deploying it, 3) Excessive travel to sites.

          While our subsequent investigation confirmed several of CS-1's allegations, we determined that
          the justifications the company provided to support the actions taken were rational and within the
          conditions of the award. We also considered the current status of the project and the fact that all
          of the sites identified by CS-1 as questionable have been operational for several months and the
          project is close to being on schedule and slightly under budget to date.
                                                                                                      1

          Based on the results of our investigation we find no evidence to support any wrongdoing by the
          company. We also conclude that the company is performing as required by the award and no
          further action is required at this time.




NSF OIG Form 2 (1 1/02)
